Audit of the Eastern Caribbean Regional Reconstruction
Activities Financed Under the Central America and the
Caribbean Emergency Disaster Recovery Fund


Audit Report No. 1-538-02-008-P

April 1, 2002




                Regional Inspector General/San Salvador


                                                          1
U.S. Agency for
 International
 Development

 RIG/San Salvador


April 1, 2002

MEMORANDUM
FOR:                USAID/Jamaica Director, Mosina H. Jordan

FROM:               RIG/San Salvador, Timothy E. Cox

SUBJECT:            Audit of the Eastern Caribbean Regional Reconstruction Activities
                    Financed Under the Central America and the Caribbean
                    Emergency Disaster Recovery Fund (Report No. 1-538-02-008-P)

This memorandum is our report on the subject audit.

This report does not contain any recommendations for your action. Your comments
to our draft report have been included, in their entirety, as Appendix II.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                        2
Summary of   As part of its fiscal year 2002 audit plan, the Regional Inspector General/San
Results      Salvador performed this audit to determine whether Eastern Caribbean disaster
             reconstruction activities, financed under the Central America and the Caribbean
             Emergency Disaster Recovery Fund, were on schedule to achieve the planned
             outputs. (See page 4.)

             We found that the Eastern Caribbean disaster reconstruction activities were on
             schedule to achieve the planned outputs. (See pages 5 through 6.)

             USAID/Jamaica agreed with the report and our findings. (See page 6.)



Background   In September 1998, Hurricane Georges swept across the eastern Caribbean. It
             caused severe damage to the economic and social infrastructure of Antigua,
             Barbuda, St. Kitts and Nevis. St. Kitts and Nevis – the country hardest hit by the
             hurricane – suffered damage estimated to be more than one and one-half times the
             country’s gross domestic product. Hurricane Georges was followed in November
             1999 by a stronger hurricane, Hurricane Lenny. As a result of Hurricane Lenny,
             large portions of the western coastlines of Antigua, Dominica, Grenada, and St.
             Lucia were damaged. Sea defense walls collapsed, and coastal highways were
             washed away.

             In May 1999, Congress passed the Emergency Supplemental Appropriations Act,
             creating the Central America and the Caribbean Emergency Disaster Recovery
             Fund, which provided a total of $621 million in reconstruction assistance for
             countries hit by hurricanes. 1 Of the $621 million, USAID/Jamaica received $8.1
             million because it was responsible for managing the hurricane recovery programs in
             the eastern Caribbean.

             Using this funding provided by Congress, USAID/Jamaica and the Organization of
             Eastern Caribbean States signed two limited scope grant agreements; one for
             Hurricane Georges recovery, totaling $3.5 million2 and dated September 17, 1999;
             and one for Hurricane Lenny recovery, totaling $5.1 million and dated June 27,
             2000. USAID/Jamaica planned to spend the $8.6 million on several activities by
             December 31, 2001.

             The following table lists the activities audited and, as reported by USAID/Jamaica’s
             financial accounting system, obligations and accrued expenditures for these
             activities as of December 31, 2001.



             1
              Also includes funding to Colombia for earthquake damage.
             2
              Of this amount, $500,000 came from development assistance and child survival appropriations,
             not the emergency supplemental appropriation.



                                                                                                             3
                Intermediate Result           Implementers             Obligations           Accrued
                (IR) Descriptions by                                     12/31/01         Expenditures
                     Hurricane                                         (unaudited)           12/31/01
                                                                                           (unaudited)
                Georges IR1: Hospital Pan American Health
                Services Restored     Organization and
                                      USAID/Jamaica                       $1,800,000          $1,709,999
                Georges IR2: Local    Organization of
                Capacity to Mitigate American States
                Disasters Enhanced                                         1,150,000            1,149,999
                Georges IR3:          Foundation for
                Economic Activities   National Development
                Reactivated                                                  368,000              350,000
                Lenny IR1: Key Sea    Smith Warner
                Defense Systems and   International LTD and
                Coastal Highways      the Governments of
                Reconstructed         Dominica, St. Lucia
                                      and Grenada                          4,259,952            4,087,122
                Lenny IR2: Key        Organization of
                Personnel Trained in American States
                Specialized Areas                                            550,000              550,000
                Lenny IR3: Integrated National Oceanic and
                Coastal Management    Atmospheric
                                3
                Plans Developed       Administration                         191,500              191,500
                USAID Project         USAID/Jamaica
                Management                                                   280,548             227,083
                       TOTAL                                              $8,600,000          $8,265,703



Audit       As part of its fiscal year 2002 audit plan, the Regional Inspector General/San
Objective   Salvador performed the audit to answer the following question:

            •     Are Eastern Caribbean disaster reconstruction activities, financed under the
                  Central America and the Caribbean Emergency Disaster Recovery Fund, on
                  schedule to achieve the planned outputs?

            The audit scope and methodology is presented in Appendix I.




            3
              Smith Warner International LTD is also developing Integrated Coastal Management Plans, but
            the funding is included in the mission’s financial accounting system under Lenny IR1.



                                                                                                           4
Audit      Are Eastern Caribbean disaster reconstruction activities, financed under the
Findings   Central America and the Caribbean Emergency Disaster Recovery Fund, on
           schedule to achieve the planned outputs?

           The Eastern Caribbean disaster reconstruction activities were on schedule to
           achieve planned outputs. The following table summarizes the outputs planned
           and achieved as of the time of audit fieldwork.

                  Hurricane         Description of Output Planned to be         Percentage
                   and IR                Completed as of 12/31/01                   of
                                                                                Completion
           1    GeorgesIR1     Construct a 24-Bed Pediatric Ward                     100%
           2    GeorgesIR1     Provide Hospital Equipment                             72%
           3    GeorgesIR1     Train Health Personnel                                100%
           4    GeorgesIR1     Design Hospital’s Wastewater Outfall                  100%
           5    GeorgesIR2     Train Disaster Committee Members                      100%
           6    GeorgesIR2     Produce Multi-Hazard Maps                             100%
           7    GeorgesIR2     Formulate Hazard Mitigation Policies                  100%
           8    GeorgesIR2     Train/Consult in the Area of Building Codes           100%
           9    GeorgesIR2     Develop Emergency Shelter Policies                    100%
           10   GeorgesIR2     Train Personnel in Shelter Management                 100%
           11   GeorgesIR2     Conduct Structural Vulnerability Audits               100%
           12   GeorgesIR2     Implement a Public Information Campaign               100%
           13   GeorgesIR3     Provide Loans to Micro/Small Businesses               100%
                                Construct Sea Defenses/Roads in Soufriere,
           14     LennyIR1     St. Lucia                                                 91%
                                Construct Sea Defenses/Drainage in Gros
           15     LennyIR1     Islet, St. Lucia                                          88%
                                Construct Sea Defenses/Roads in Cabrits,
           16     LennyIR1     Dominica                                                  97%
                                Construct Sea Defenses/Roads in Gouyave,
           17     LennyIR1     Grenada                                                99%
           18     LennyIR2     Train Personnel in Coastal Management                 100%
                                Recommend Policies to Ensure Continuity in
           19     LennyIR2     Coastal Management                                    100%
                                Develop an Integrated Coastal Management
           20     LennyIR3     Plan (ICMP) for Antigua                                   90%
                                Create, and Train in the Use of, a Geographic
           21     LennyIR3     Information System Database                           100%
           22     LennyIR3     Develop an ICMP for Gros Islet, St. Lucia              90%
           23     LennyIR3     Develop an ICMP for Soufriere, St. Lucia               90%




                                                                                           5
                 Since audit fieldwork ended less than one month prior to the scheduled
                 completion of reconstruction activities, planned outputs were those outputs
                 expected by the mission to be completed as of December 31, 2001. The
                 percentage of completion was calculated based on what had been accomplished as
                 of the time of our fieldwork. We verified actual accomplishments in several ways
                 as follows:

                 •   For half of the outputs (by dollar value), we physically observed the work
                     completed to date and verified that mechanisms were in place to ensure that
                     the work met specifications, such as independent quality testing by qualified
                     engineers (Output Numbers 1, 2, 14, 15, and 16).

                 •   For most construction activities, we reviewed invoices paid to ensure that the
                     proper certifications of work performed were completed (Output Numbers 14,
                     15 and 16).

                 •   For the training and loan activities, we performed one or more of the
                     following steps: 1) reviewed USAID/Jamaica’s progress reports; 4 2) reviewed
                     implementers’ progress or final reports; and 3) interviewed recipients of
                     training during our site visits (Output Numbers 3, 5, 8, 10, 13, 18, and 21).

                 •   For outputs regarding the development of plans, policies, maps, vulnerability
                     audits, and the wastewater outfall, we reviewed the products produced by
                     implementing organizations (Output Numbers 4, 6, 7, 9, 11, 19, 20, 22, and
                     23).

                 •   For the remaining outputs, we relied on mission site visit and progress reports
                     as evidence of accomplishments against planned outputs (Output Numbers 12
                     and 17).

                 Because more than 90 percent of the planned outputs were at least 90 percent
                 complete as of the time of audit fieldwork, we concluded that the Eastern
                 Caribbean reconstruction activities were on schedule to achieve planned outputs.



Management       USAID/Jamaica, in its comments to our draft report, agreed with the report and
Comments and     findings.
Our Evaluation

                 4
                  Progress and final reports detailed training subject matters, number of participants and/or dates
                 of training.




                                                                                                                      6
                                                                               Appendix I


Scope and     Scope
Methodology
              We audited Eastern Caribbean reconstruction activities, financed under the
              Central America and the Caribbean Emergency Disaster Recovery Fund, in
              accordance with generally accepted government auditing standards.
              According to USAID/Jamaica, obligations and accrued expenditures, as of
              December 31, 2001, totaled $8.6 million and $8.3 million, respectively.

              We conducted the audit at USAID/Jamaica and various sites in St. Lucia,
              Dominica, and St. Kitts. We conducted the audit from November 27, 2001 to
              December 14, 2001, and covered the period from September 17, 1999 (the
              signing of the first limited scope grant agreement that resulted in the first
              obligation) to December 7, 2001 (the date of our last site visit).

              The audit focused on whether the reconstruction activities were on schedule
              to achieve their planned outputs. Planned outputs were determined by
              reviewing implementation documents, such as contracts, grants and
              cooperative agreements, and by interviewing the USAID/Jamaica project
              manager.

              We assessed the mission’s management controls related to monitoring the
              reconstruction activities. Specifically, we assessed its controls for approving
              sub-awards and host country contracts; reviewing progress and financial
              reports; performing site visits; and monitoring the quality and timeliness of
              outputs.

              Methodology

              To answer the audit objective, we reviewed documentation at
              USAID/Jamaica, which included project design documents and
              implementing agreements between parties. In addition, we reviewed
              implementing organizations’ progress reports, sub-awards and/or
              construction tender documents and contracts.

              We interviewed USAID/Jamaica officials, a mission-hired engineering
              consultant, and construction supervisors. We assessed the mission’s risk
              exposure and effectiveness of its management controls in order to
              determine the extensiveness of site visits necessary to validate outputs
              achieved. Following this assessment, we judgmentally selected four sites
              to visit based on dollar values and perceived vulnerabilities. The sites
              selected were all construction activities with high costs associated with
              them. We performed site visits relating to 6 of the 23 outputs, or
              approximately 50 percent of the $8.6 million obligated. In addition, we
              validated the achievement of other outputs by reviewing products. For
              example, for the outputs to develop Integrated Coastal Management Plans,


                                                                                                7
                                                              Appendix I

we reviewed the draft plans. For the remaining outputs, we performed
other audit tests as detailed on page six.

We considered that reconstruction activities were on schedule if at least 90
percent of the planned outputs were at least 90 percent complete as of the
time of our audit. This threshold reflected our judgments about the level of
performance that was practical and achievable for the audited activities.




                                                                           8
                                                                                     Appendix II


Management
Comments



                                     USAID/J-Car.
                                    Director’s Office


Memorandum
To:    Timothy Cox, Regional Inspector General, San Salvador
From: Mosina Jordan, Mission Director [signed]
CC:    Mary E. Lew, Regional Controller, USAID/Jamaica-Car.
Date: March 1, 2002

Subject: Audit of the Eastern Caribbean Regional Reconstruction Activities Financed
        Under the Central America and the Caribbean Emergency Disaster Recovery Fund
        (CACEDRF). Audit Report No. 1-538-02-00X-P
____________________________________________________________________

We have reviewed the draft on the captioned and concur with the findings that the Eastern Caribbean
disaster reconstruction activities were on schedule to achieve the planned outputs. We note that the
total awarded includes Development Assistance and Child Survival funds amounting to five hundred
thousand dollars ($500,000). It is our understanding that the final report will be amended to include
amounts directly related to CACEDRF.

It was a pleasure having your staff during the audit.




                                                                                                   9
